               TESTIMONY OF HAROLD W. GEISEL

                INSPECTOR GENERAL (ACTING)


        U.S. DEPARTMENT OF STATE AND BROADCASTING

                   BOARD OF GOVERNORS

                       BEFORE THE


          UNITED STATES HOUSE OF REPRESENTATIVES

      COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
   SUBCOMMITTEE ON NATIONAL SECURITY AND FOREIGN AFFAIRS


                          ON


AFGANISTAN AND PAKISTAN: ACCOUNTABILITY COMMUNITY OVERSIGHT
              OF A NEW INTERAGENCY STRATEGY



                     SEPTEMBER 9, 2009
      Chairman Tierney, Ranking Member Flake, members of the Committee,
thank you for inviting me to discuss the State Department Office of Inspector
General’s (OIG) oversight plan and our coordination and planning efforts with
other Inspectors General (IGs) to provide oversight of U.S. resources and
projects in Pakistan and Afghanistan.
      I also led this office from 1994 to 1995 and am very pleased with the
significant increase in oversight that OIG is conducting around the world.
      The State Department OIG is an original member of the Southwest Asia
Joint Planning Group responsible for coordinating the work of IGs active in that
broad geographic region. This past spring, the Pakistan-Afghanistan (Pak-Af)
Subgroup was formed in order to better focus on oversight related to Pakistan
and Afghanistan.
      The Pak-Af Subgroup includes the IGs for the Department of State and
Defense, U.S. Agency for International Development (USAID), the Special
Inspector General for Afghanistan Reconstruction (SIGAR), and the Government
Accountability Office (GAO). Pak-Af held its first meeting in May 2009. In July,
member agencies signed a charter, committing to inform each other about the
status of ongoing and planned projects, discuss and resolve any coordination
issues, and de-conflict activities.
      I am pleased to report that the Pak-Af Subgroup is working well. In addition
to formal, regularly scheduled monthly meetings, members take part in weekly,
and sometimes daily, discussions. Members work together during the meetings
and informally to improve oversight within their jurisdiction and eliminate
redundant oversight. At times, agencies work jointly on oversight projects, such
as the joint State / Defense review of the Afghanistan police training program.
IGs in Pak-Af also focus on different aspects of one effort.
      For example, our Middle East Regional Office (MERO) and GAO
coordinated their respective reviews of counternarcotics efforts in Afghanistan to
avoid a duplication of information in our reports.
      We are acutely aware of the difficulties of working in Pakistan and
Afghanistan and the burden that our staffs can place on U.S. civilian and military
personnel working in those countries. Therefore, we are committed to avoiding
redundancy and maximizing our effectiveness.


Pakistan
      At the request of Ambassador Anne Patterson, MERO will conduct a review
this fall of the current management control environment at Embassy Islamabad in
anticipation of a significant increase in funding and program implementation
during the next five years. MERO will assess program risk and vulnerability
associated with achieving current and new program objectives.
      The review will determine the state of management control activities,
communications, and monitoring systems for Department funds to be provided to
the Federally Administered Tribal Areas of Pakistan, commonly known as FATA.
Furthermore, we plan to evaluate the capabilities of Pakistani agencies and non-
governmental organizations (NGOs) currently receiving U.S. funds or that may
receive funds, to ensure they have the proper management controls in place and
funds are used as intended.
      Our plan is to use this risk and vulnerability assessment, when necessary,
to “drill down” and conduct more thorough examinations, during 2010, 2011 and
beyond, of those programs and activities designated as most vulnerable to
waste, fraud, and abuse. As we learned from Iraq assistance programs in 2004
and 2005, effective management controls are needed at the initial stages of
assistance implementation. The lack of effective management controls by
civilian and military agencies at the outset in Iraq led to widespread waste and
misappropriation of U.S. assistance.
     Our goals are to:
      • Get in on the ground floor of the Department’s expanding assistance
         program in Pakistan,
      • Map and fully understand the management control systems used by
         Embassy Islamabad and its Pakistani implementing partners, and
      • Concurrently monitor high-risk and high-value activities.
     Our Office of Inspections plans to add a full post inspection of Embassy
Islamabad in Calendar Year 2010. Post inspections thoroughly cover every
aspect of Department activity managed by the Embassy.
     In August, OIG and Embassy Islamabad agreed to have MERO open a
five-person office at the Embassy to monitor Department programs. A dedicated
core of auditors and program analysts stationed in Pakistan, supplemented as
needed with additional OIG personnel, will provide the necessary oversight.
     MERO has effectively used this staffing model at Embassy Baghdad and
plans to open a similar-sized office at Embassy Kabul in September 2009.
Obtaining housing, office space, and other support services in an already
overcrowded embassy compound has been and will continue to be a challenge;
however, we expect to have our team up and running in Pakistan in early 2010.
In the meantime, we will continue to provide audit coverage in Pakistan with
personnel from our offices in Amman, Cairo, Kabul and Washington, DC.


Afghanistan
     Our Office of Inspections initiated its post inspection of Kabul this summer
and should report later in 2009. About 12 inspectors, including a highly
experienced team leader and former ambassador, is conducting the post
inspection, which will include contracting, mission programs, consular affairs and
security and protection.
      The Office of Inspections will also issue a report later this month on the
Department’s de-mining program in Afghanistan.
      Our MERO group had originally planned to open a four-person office at
Embassy Kabul at the beginning of 2009. However, we agreed to delay our
arrival until this fall because of housing and office shortages. Currently, we are
set to open our office in Kabul later this month. In the meantime, MERO has
been conducting fieldwork there on 3- to 4-week temporary duty visits.
      In August, we released a MERO report covering the performance of U.S.
Training Center (formerly Blackwater) under the terms of its Afghanistan contract
to ensure the safety of chief of mission personnel while operating outside the
Embassy.
      MERO also is participating in a joint State / Defense audit of the Afghan
National Police Training and Mentoring Program. An eight-person team of
auditors and program analysts will determine whether costs submitted by
contractors are allowable, allocable, and reasonable for the services received.
The joint audit team also is assessing the staffing, training, contract
management, and contract effectiveness of the police trainers and will report at
the end of this year.
      Looking forward to FY 2010 - 2011, MERO plans to open work on a
number of Department-funded programs including refugees and internally
displaced persons, public diplomacy, the embassy’s local security guard forces,
and the rightsizing (staffing) of Embassy Kabul. The present environment in
Afghanistan is very fluid, so MERO remains prepared to respond quickly to
emerging needs of the Embassy, the Department, and Congress.
Investigations
     In FY 2009, along with the establishment of MERO, the Office of
Investigations created the Middle East Investigative Branch (MEIB) to conduct
investigations in support of the Department’s expanding Middle East and South
Asia mission. MEIB’s primary mission is to respond to criminal allegations and
support investigative activities concerning Department programs, employees,
and contractors from Pakistan to Morocco with focused concentration on high-
value, high-risk areas of Iraq, Pakistan, and Afghanistan.
     To date, six criminal investigators are assigned to MEIB with five posted
overseas and one in Arlington, Virginia. The five investigators in the Middle East
are assigned to Amman, Baghdad, and Cairo. We can move our personnel easily
from these forward bases, as needed, to Islamabad or Kabul
     We plan to increase MEIB staff at current posts, adding one in Baghdad,
and one in Amman, assuming congressional support for our expanded mission in
these critical regions. In FY 2010, Investigations plans to add two MEIB staff
based in Washington, D.C.
     MEIB completed construction of its Cairo office, the third of three in the
region, in June 2009. One of the Cairo-based agents will be assigned as the
Regional Agent in Charge (RAC) and is scheduled to report in September 2009.
The RAC will manage all investigative operations and MEIB staff in the region.
     In an effort to leverage law enforcement resources and share investigative
information, the MEIB is also an active member of the International Contract
Corruption Task Force, which includes nine federal agencies, chaired by the
FBI. The Task Force was created in mid-2007 by the Department of Justice to
coordinate a comprehensive approach to international corruption and
procurement fraud cases.
      We cannot discuss open investigations, however, during fiscal year 2009,
the MEIB’s investigative activities in Afghanistan include: Six (6) open
investigations and four (4) preliminary inquiries, covering alleged criminal
violations such as Fraud, False Statements, Conspiracy to Distribute a Controlled
Substance, Sexual Exploitation of a Minor, Sexual Exploitation of a Third Country
National, Unlawful Arrest/Detention, Reprisal, Assault, Embezzlement,
Kickbacks, International Traffic in Arms violations, Human Trafficking, and
Federal Acquisition Regulations violations.


Potential Increase in Pakistan Foreign Assistance
      The Committee asked how we would plan our oversight should the pending
bills for increased foreign assistance to Pakistan become law and provide an
additional $1.5 billion each year over the next 5 years.
      Currently, there are two versions of the bill and I can at least address what
we understand are the consistent elements of both bills.
      First, there is clear Congressional intent for an in-country OIG presence in
Pakistan. We have been staffing Kabul and Islamabad with temporary
deployments to both countries and we will increase staff there as necessary. Our
office in Kabul opens this month and the Islamabad office will be opened by
spring 2010.
      Since the middle of 2008, MERO has begun a review of internal controls for
all Department programs with activity in Pakistan and finished a review of the
Fulbright Program earlier this year.
      Lastly, the priorities set forth in the current bills – governance, economic
development and investing in people - could touch on a number of State
programs that we oversee and some that we share with USAID OIG. This
includes Rule of Law, International Narcotics and Law Enforcement, Education
and Cultural Affairs and Democracy, Human Rights and Labor.
      Mr. Chairman, we expect that USAID would likely receive the lion’s share of
this new foreign assistance funding. Nevertheless, we will remain watchful, as
the legislation moves through Congress and then follow the Department’s
decision on how it will allocate this new funding.
      The Committee also asked how we intend to overcome the challenges of
providing effective oversight of Department programs in the Federally
Administered Tribal Areas (FATA). First, all U.S. oversight staff are under Chief
of Mission authority in both countries and travel to the FATA is controlled by the
embassy Regional Security Office. Foreign Assistance in the FATA is being
accomplished with the use of Non-U.S. implementers.
      Ideally, all of the IGs here would hope for enough stability to enable travel
to all regions of FATA. Today, that is rarely possible. Even without stability, it is
possible to evaluate procurements without entering FATA, but field work for
performance reviews or audits will be more challenging.
      I believe it would be possible to engage non-U.S. personnel to monitor
program progress.
      Thank you for the opportunity to present this timely information to you
today. I would be happy to answer any questions you may have.
